 Department of Health and Human Services
                    OFFICE OF
               INSPECTOR GENERAL




MEDICARE COMPLIANCE REVIEW OF
   HOAG MEMORIAL HOSPITAL
         PRESBYTERIAN
      FOR CALENDAR YEARS
       2008 THROUGH 2011


   Inquiries about this report may be addressed to the Office of Public Affairs at
                            Public.Affairs@oig.hhs.gov.




                                                    Lori A. Ahlstrand
                                                Regional Inspector General

                                                       December 2012
                                                       A-09-12-02012
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

Title XVIII of the Social Security Act (the Act) established the Medicare program, which
provides health insurance coverage to people aged 65 and over, people with disabilities, and
people with end-stage renal disease. The Centers for Medicare & Medicaid Services (CMS)
administers the Medicare program.

Section 1886(d) of the Act established the inpatient prospective payment system (IPPS) for
hospital inpatient services. Under the IPPS, CMS pays hospital costs at predetermined rates for
patient discharges. The rates vary according to the diagnosis-related group (DRG) to which a
beneficiary’s stay is assigned and the severity level of the patient’s diagnosis. The DRG
payment is, with certain exceptions, payment in full to the hospital for all inpatient costs
associated with the beneficiary’s stay.

CMS implemented an outpatient prospective payment system (OPPS) for hospital outpatient
services, as mandated by the Balanced Budget Act of 1997, P.L. No. 105-33, and the Medicare,
Medicaid, and SCHIP (State Children’s Health Insurance Program) Balanced Budget Refinement
Act of 1999, P.L. No. 106-113. Under the OPPS, Medicare pays for hospital outpatient services
on a rate-per-service basis that varies according to the assigned ambulatory payment
classification.

Prior Office of Inspector General (OIG) audits, investigations, and inspections identified certain
payments to hospitals that are at risk for noncompliance with Medicare billing requirements.
OIG identified these payments to hospitals using computer matching, data mining, and analysis
of claims. This review is part of a series of OIG reviews of Medicare payments to hospitals for
selected claims for inpatient and outpatient services.

Hoag Memorial Hospital Presbyterian (the Hospital) is an acute-care hospital located in Newport
Beach, California. Medicare paid the Hospital approximately $462 million for 33,013 inpatient
and 234,375 outpatient claims for services provided to beneficiaries during calendar years (CY)
2008 through 2011 based on CMS’s National Claims History data.

Our audit covered $2,740,669 in Medicare payments to the Hospital for 249 claims that we
judgmentally selected as potentially at risk for billing errors. These claims had dates of service
in CYs 2008 through 2011 and consisted of 169 inpatient and 80 outpatient claims.

OBJECTIVE

Our objective was to determine whether the Hospital complied with Medicare requirements for
billing inpatient and outpatient services on selected claims.




                                                 i
SUMMARY OF FINDINGS

The Hospital complied with Medicare billing requirements for 126 of the 249 inpatient and
outpatient claims we reviewed. However, the Hospital did not fully comply with Medicare
billing requirements for the remaining 123 claims, resulting in overpayments totaling $487,558
for CYs 2008 through 2011. Specifically, 69 inpatient claims had billing errors, resulting in
overpayments totaling $338,379, and 54 outpatient claims had billing errors, resulting in
overpayments totaling $149,179. These overpayments occurred primarily because the Hospital’s
existing controls did not adequately prevent incorrect billing of these Medicare claims.

RECOMMENDATIONS

We recommend that the Hospital:

   •    refund to the Medicare contractor $487,558, consisting of $338,379 in overpayments for
        the incorrectly billed inpatient claims and $149,179 in overpayments for the incorrectly
        billed outpatient claims, and

    •   strengthen controls to ensure full compliance with Medicare requirements.

HOSPITAL COMMENTS

In its written comments on our draft report, the Hospital stated that it had no further comments
on the contents of the report and had no objections to our recommendations. The Hospital’s
comments are included in their entirety as the Appendix.




                                                ii
                                                   TABLE OF CONTENTS
                                                                                                                                      Page

INTRODUCTION........................................................................................................................1

      BACKGROUND ...................................................................................................................1
         Hospital Inpatient Prospective Payment System ...........................................................1
         Hospital Outpatient Prospective Payment System .........................................................1
         Hospital Payments at Risk for Incorrect Billing ............................................................1
         Medicare Requirements for Hospital Claims and Payments .........................................2
         Hoag Memorial Hospital Presbyterian...........................................................................2

      OBJECTIVE, SCOPE, AND METHODOLOGY .................................................................3
         Objective ........................................................................................................................3
         Scope ..............................................................................................................................3
         Methodology ..................................................................................................................3

FINDINGS AND RECOMMENDATIONS ..............................................................................4

      BILLING ERRORS ASSOCIATED WITH INPATIENT CLAIMS ....................................4
          Incorrectly Billed as Inpatient or Without a Physician Order........................................4
          Incorrect Discharge Status .............................................................................................5
          Manufacturer Credits for Replaced Medical Devices Not Reported or Obtained .........5
          Incorrect Diagnosis-Related Groups ..............................................................................6
          Incorrectly Billed as Separate Inpatient Stay .................................................................6

      BILLING ERRORS ASSOCIATED WITH OUTPATIENT CLAIMS ................................7
          Incorrect Healthcare Common Procedure Coding System Codes .................................7
          Manufacturer Credits for Replaced Medical Devices Not Reported or Obtained .........7
          Lack of a Physician Order .............................................................................................8
          Incorrect Billing for Unlabeled Use of a Drug ..............................................................8

      RECOMMENDATIONS ......................................................................................................9

      HOSPITAL COMMENTS ....................................................................................................9

APPENDIX

      HOAG MEMORIAL HOSPITAL PRESBYTERIAN COMMENTS




                                                                     iii
                                              INTRODUCTION

BACKGROUND

Title XVIII of the Social Security Act (the Act) established the Medicare program, which
provides health insurance coverage to people aged 65 and over, people with disabilities, and
people with end-stage renal disease. The Centers for Medicare & Medicaid Services (CMS)
administers the Medicare program. Medicare Part A provides inpatient hospital insurance
benefits and coverage of extended care services for patients after hospital discharge. Medicare
Part B provides supplementary medical insurance for medical and other health services,
including coverage of hospital outpatient services.

CMS contracts with Medicare contractors to, among other things, process and pay claims
submitted by hospitals.

Hospital Inpatient Prospective Payment System

Section 1886(d) of the Act established the inpatient prospective payment system (IPPS) for
hospital inpatient services. Under the IPPS, CMS pays hospital costs at predetermined rates for
patient discharges. The rates vary according to the diagnosis-related group (DRG) to which a
beneficiary’s stay is assigned and the severity level of the patient’s diagnosis. The DRG
payment is, with certain exceptions, payment in full to the hospital for all inpatient costs
associated with the beneficiary’s stay.

Hospital Outpatient Prospective Payment System

CMS implemented an outpatient prospective payment system (OPPS) for hospital outpatient
services, as mandated by the Balanced Budget Act of 1997, P.L. No. 105-33, and the Medicare,
Medicaid, and SCHIP (State Children’s Health Insurance Program) Balanced Budget Refinement
Act of 1999, P.L. No. 106-113. 1 The OPPS is effective for services furnished on or after
August 1, 2000. Under the OPPS, Medicare pays for hospital outpatient services on a rate-per-
service basis that varies according to the assigned ambulatory payment classification (APC).
CMS uses Healthcare Common Procedure Coding System (HCPCS) codes and descriptors to
identify and group the services within each APC group. 2 All services and items within an APC
group are comparable clinically and require comparable resources.

Hospital Payments at Risk for Incorrect Billing

Prior Office of Inspector General (OIG) audits, investigations, and inspections identified certain
payments to hospitals that are at risk for noncompliance with Medicare billing requirements.
OIG identified these payments to hospitals using computer matching, data mining, and analysis
of claims. Examples of the types of claims at risk for noncompliance included the following:

1
    In 2009 SCHIP was formally redesignated as the Children’s Health Insurance Program.
2
 HCPCS codes are used throughout the health care industry to standardize coding for medical procedures, services,
products, and supplies.


                                                         1
    •   inpatient claims for short stays,

    •   inpatient transfer claims,

    •   inpatient claims with high severity level DRG codes,

    •   inpatient claims for blood clotting factor drugs,

    •   outpatient claims billed prior to and during inpatient stays,

    •   outpatient claims billed with modifier -59 (indicating that a procedure or service was
        distinct from other services performed on the same day),

    •   inpatient and outpatient claims paid in excess of charges, and

    •   inpatient and outpatient claims involving manufacturer credits for replaced medical
        devices.

For the purposes of this report, we refer to these areas at risk for incorrect billing as “risk areas.”

This review is part of a series of OIG reviews of Medicare payments to hospitals for selected
claims for inpatient and outpatient services.

Medicare Requirements for Hospital Claims and Payments

Section 1862(a)(1)(A) of the Act states that Medicare payments may not be made for items or
services that “are not reasonable and necessary for the diagnosis or treatment of illness or injury
or to improve the functioning of a malformed body member.” In addition, section 1833(e) of the
Act precludes payment to any provider of services or other person without information necessary
to determine the amount due the provider.

Federal regulations (42 CFR § 424.5(a)(6)) state that the provider must furnish to the Medicare
contractor sufficient information to determine whether payment is due and the amount of the
payment.

The Medicare Claims Processing Manual (the Manual), Pub. No. 100-04, chapter 1, section
80.3.2.2, requires providers to complete claims accurately so that Medicare contractors may
process them correctly and promptly. Chapter 23, section 20.3, of the Manual states that
providers must use HCPCS codes for most outpatient services.

Hoag Memorial Hospital Presbyterian

Hoag Memorial Hospital Presbyterian (the Hospital) is an acute-care hospital located in Newport
Beach, California. Medicare paid the Hospital approximately $462 million for 33,013 inpatient
and 234,375 outpatient claims for services provided to beneficiaries during calendar years (CY)
2008 through 2011 based on CMS’s National Claims History data.


                                                   2
OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the Hospital complied with Medicare requirements for
billing inpatient and outpatient services on selected claims.

Scope

Our audit covered $2,740,669 in Medicare payments to the Hospital for 249 claims that we
judgmentally selected as potentially at risk for billing errors. These claims had dates of service
in CYs 2008 through 2011 and consisted of 169 inpatient and 80 outpatient claims.

We focused our review on the risk areas that we had identified during and as a result of prior
OIG reviews at other hospitals. We evaluated compliance with selected billing requirements but
did not use medical review to determine whether the services were medically necessary.

We limited our review of the Hospital’s internal controls to those applicable to the inpatient and
outpatient claims selected for review because our objective did not require an understanding of
all internal controls over the submission and processing of claims. Our review enabled us to
establish reasonable assurance of the authenticity and accuracy of the data obtained from the
National Claims History file, but we did not assess the completeness of the file.

This report focuses on selected inpatient and outpatient claims and does not represent an overall
assessment of all claims submitted by the Hospital for Medicare reimbursement.

We conducted our fieldwork at the Hospital in January and February 2012.

Methodology

To accomplish our objective, we:

   •    reviewed applicable Federal laws, regulations, and guidance;

   •    extracted the Hospital’s inpatient and outpatient paid claim data from CMS’s National
        Claims History file for CYs 2008 through 2011;

   •    obtained information on known credits for replaced cardiac medical devices from the
        device manufacturers for CYs 2008 through 2011;

   •    used computer matching, data mining, and analysis techniques to identify claims
        potentially at risk for noncompliance with selected Medicare billing requirements;

   •    judgmentally selected 249 claims (169 inpatient and 80 outpatient claims) for detailed
        review;



                                                 3
   •   reviewed available data from CMS’s Common Working File for the selected claims to
       determine whether the claims had been canceled or adjusted;

   •   requested that the Hospital conduct its own review of the selected claims to determine
       whether the services were billed correctly;

   •   reviewed the itemized bills and medical record documentation provided by the Hospital
       to support the selected claims;

   •   reviewed the Hospital’s procedures for assigning HCPCS codes and submitting Medicare
       claims;

   •   discussed the incorrectly billed claims with Hospital personnel to determine the
       underlying causes of noncompliance with Medicare requirements;

   •   calculated the correct payments for those claims requiring adjustments; and

   •   discussed the results of our review with Hospital officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                          FINDINGS AND RECOMMENDATIONS

The Hospital complied with Medicare billing requirements for 126 of the 249 inpatient and
outpatient claims we reviewed. However, the Hospital did not fully comply with Medicare
billing requirements for the remaining 123 claims, resulting in overpayments totaling $487,558
for CYs 2008 through 2011. Specifically, 69 inpatient claims had billing errors, resulting in
overpayments totaling $338,379, and 54 outpatient claims had billing errors, resulting in
overpayments totaling $149,179. These overpayments occurred primarily because the Hospital’s
existing controls did not adequately prevent incorrect billing of these Medicare claims.

BILLING ERRORS ASSOCIATED WITH INPATIENT CLAIMS

The Hospital incorrectly billed Medicare for 69 of 169 selected inpatient claims, which resulted
in overpayments totaling $338,379.

Incorrectly Billed as Inpatient or Without a Physician Order

Section 1862(a)(1)(A) of the Act states that Medicare payments may not be made for items or
services that “are not reasonable and necessary for the diagnosis or treatment of illness or injury
or to improve the functioning of a malformed body member.” Section 1814(a)(3) of the Act
states that payment for services furnished to an individual may be made only to providers of


                                                 4
services that are eligible and only if, “with respect to inpatient hospital services … which are
furnished over a period of time, a physician certifies that such services are required to be given
on an inpatient basis for such individual’s medical treatment ….” Federal regulations (42 CFR
§ 424.13(a)) state that Medicare Part A pays for inpatient hospital services only if a physician
certifies and recertifies, among other things, the reasons for continued hospitalization.

For 29 of 169 selected inpatient claims, the Hospital incorrectly billed Medicare Part A for
beneficiary stays that should have been billed as outpatient services or outpatient-with-
observation services (28 claims) or did not have a physician order to admit the beneficiary for
inpatient care (1 claim). The Hospital attributed the patient admission errors primarily to
inadequate internal controls over case management for monitoring short stays and attributed the
missing physician order to human error. As a result of these errors, the Hospital received
overpayments totaling $59,445. 3

Incorrect Discharge Status

Federal regulations (42 CFR § 412.4(b)) state that a discharge of a hospital inpatient is
considered to be a transfer if the patient is readmitted the same day to another hospital unless the
readmission is unrelated to the initial discharge. A discharge of a hospital inpatient is also
considered to be a transfer when the patient’s discharge is assigned to one of the qualifying
DRGs and the discharge is to a home under a written plan of care for the provision of home
health services from a home health agency and those services begin within 3 days after the date
of discharge (42 CFR § 412.4(c)). A hospital that transfers an inpatient under the above
circumstances is paid a graduated per diem rate for each day of the patient’s stay in that hospital,
not to exceed the full DRG payment that would have been paid if the patient had been discharged
to another setting (42 CFR § 412.4(f)).

For 27 of 169 selected inpatient claims, the Hospital incorrectly billed Medicare for patient
discharges that should have been billed as transfers to other facilities or to the patient’s home for
home health services. For each claim, the Hospital should have coded the discharge status as a
transfer instead of as “discharged to home” or “left against medical advice”; thus, the Hospital
should have received the per diem payment instead of the full DRG payment. The Hospital
stated that these errors occurred because of the complexity of the process for coding patient
discharge status. As a result of these errors, the Hospital received overpayments totaling
$180,281.

Manufacturer Credits for Replaced Medical Devices Not Reported or Obtained

Federal regulations (42 CFR § 412.89(a)) require a reduction in the IPPS payment for the
replacement of an implanted device if (1) the device is replaced without cost to the provider,
(2) the provider receives full credit for the cost of the device, or (3) the provider receives a credit
equal to 50 percent or more of the cost of the device. The Manual, chapter 3, section 100.8, states
that to correctly bill for a replacement device that was provided with a credit, hospitals must use
the combination of condition code 49 or 50 (which identifies the replacement device) and value

3
 We did not include the overpayment for one claim in our calculation because it was recovered by CMS’s Recovery
Audit Contractor.


                                                      5
code FD (which identifies the amount of the credit or cost reduction received by the hospital for
the replaced device).

Section 2103.A. of the CMS Provider Reimbursement Manual states that Medicare providers are
expected to pursue free replacements or reduced charges under warranties for medical devices.
Section 2103.C.4. provides the following example:

       Provider B purchases cardiac pacemakers or their components for use in replacing
       malfunctioning or obsolete equipment, without asking the supplier/manufacturer
       for full or partial credits available under the terms of the warranty covering the
       replaced equipment. The credits or payments that could have been obtained must
       be reflected as a reduction of the cost of the equipment supplied.

For 8 of 169 selected inpatient claims, the Hospital received full credit for replaced devices but
did not report the value code FD or reduced charges on its claims (7 claims), or the Hospital did
not obtain a credit for a replaced medical device that was available under the terms of the
manufacturer’s warranty (1 claim). The Hospital stated that these errors occurred because of
inadequate controls to identify, obtain, and properly report credits from device manufacturers.
As a result of these errors, the Hospital received overpayments totaling $42,550.

Incorrect Diagnosis-Related Groups

Section 1862(a)(1)(A) of the Act states that Medicare payments may not be made for items or
services that “are not reasonable and necessary for the diagnosis or treatment of illness or injury
or to improve the functioning of a malformed body member.” Chapter 1, section 80.3.2.2, of the
Manual states: “In order to be processed correctly and promptly, a bill must be completed
accurately.”

For 4 of 169 selected inpatient claims, the Hospital billed Medicare with incorrect DRGs. For
example, for three claims, the Hospital billed a DRG specifying that the procedure was unrelated
to the primary diagnosis code; however, we determined that the procedure was related to the
primary diagnosis code. The Hospital stated that these errors occurred because of a flaw in the
Hospital’s computer software that did not properly identify the claims for secondary review and
because of human error. As a result of these errors, the Hospital received overpayments totaling
$51,541.

Incorrectly Billed as Separate Inpatient Stay

The Manual, chapter 3, section 40.2.5, states:

       When a patient is discharged/transferred from an acute care Prospective Payment
       System (PPS) hospital, and is readmitted to the same acute care PPS hospital on
       the same day for symptoms related to, or for evaluation and management of, the
       prior stay’s medical condition, hospitals shall adjust the original claim generated
       by the original stay by combining the original and subsequent stay onto a single
       claim.



                                                 6
For 1 of 169 selected inpatient claims, the Hospital incorrectly billed Medicare separately for a
related discharge and readmission within the same day. The Hospital stated that this occurred
because of human error. As a result, the Hospital received an overpayment of $4,562.

BILLING ERRORS ASSOCIATED WITH OUTPATIENT CLAIMS

The Hospital incorrectly billed Medicare for 54 of 80 selected outpatient claims, which resulted
in overpayments totaling $149,179.

Incorrect Healthcare Common Procedure Coding System Codes

Section 1833(e) of the Act precludes payment to any provider of services or other person without
information necessary to determine the amount due the provider. The Manual, chapter 1,
section 80.3.2.2, sates: “In order to be processed correctly and promptly, a bill must be
completed accurately.”

For 50 of 80 selected outpatient claims, the Hospital submitted claims to Medicare with an
incorrect HCPCS code. Specifically, the Hospital billed the incorrect HCPCS code for a drug
available in two separate dosages, each assigned its own HCPCS code and separately packaged.
The Hospital stated that these errors occurred because the Hospital’s pharmacy computer system
was configured to select the incorrect HCPCS for this drug. As a result of these errors, the
Hospital received overpayments totaling $105,589.

Manufacturer Credits for Replaced Medical Devices Not Reported or Obtained

Federal regulations (42 CFR § 419.45) require a reduction in the OPPS payment for the
replacement of an implanted device if (1) the device is replaced without cost to the provider or
the beneficiary, (2) the provider receives full credit for the cost of the replaced device, or (3) the
provider receives partial credit equal to or greater than 50 percent of the cost of the replacement
device.

CMS guidance in Transmittal 1103, dated November 3, 2006, and the Manual explain how a
provider should report no-cost and reduced-cost devices under the OPPS. For services furnished
on or after January 1, 2007, CMS requires the provider to report the modifier -FB and reduced
charges on a claim that includes a procedure code for the insertion of a replacement device if the
provider incurs no cost or receives full credit for the replaced device. If the provider receives a
replacement device without cost from the manufacturer, the provider must report a charge of no
more than $1 for the device.

Pursuant to 42 CFR § 413.9, “All payments to providers of services must be based on the
reasonable cost of services ....” The CMS Provider Reimbursement Manual, section 2102.1,
states:

       Implicit in the intention that actual costs be paid to the extent they are reasonable
       is the expectation that the provider seeks to minimize its costs and that its actual
       costs do not exceed what a prudent and cost conscious buyer pays for a given item



                                                   7
       or service. … If costs are determined to exceed the level that such buyers incur,
       in the absence of clear evidence that the higher costs were unavoidable, the excess
       costs are not reimbursable under the program.

Section 2103.A. of the Provider Reimbursement Manual states that Medicare providers are
expected to pursue free replacements or reduced charges under warranties for medical devices.
Section 2103.C.4. provides the following example:

       Provider B purchases cardiac pacemakers or their components for use in replacing
       malfunctioning or obsolete equipment, without asking the supplier/manufacturer
       for full or partial credits available under the terms of the warranty covering the
       replaced equipment. The credits or payments that could have been obtained must
       be reflected as a reduction of the cost of the equipment supplied.

For 2 of 80 selected outpatient claims, the Hospital received full credit for a replaced device but
did not report the -FB modifier or reduced charges on its claim (1 claim), or the Hospital did not
obtain a credit for a replaced device that was available under the terms of the manufacturer’s
warranty (1 claim). The Hospital stated that these errors occurred because of inadequate controls
to identify, obtain, and properly report credits from device manufacturers. As a result of these
errors, the Hospital received overpayments totaling $41,841.

Lack of a Physician Order

Section 1833(e) of the Act states: “No payment shall be made to any provider of services …
unless there has been furnished such information as may be necessary in order to determine the
amounts due such provider … for the period with respect to which the amounts are being
paid ….”

For 1 of 80 selected outpatient claims, the Hospital billed Medicare for a medication
administered to the beneficiary but was unable to provide the physician’s order for this
medication. The Hospital stated that this occurred because of human error. As a result, the
Hospital received an overpayment of $1,112.

Incorrect Billing for Unlabeled Use of a Drug

CMS’s Medicare Benefit Policy Manual, Pub. No. 100-02, chapter 15, section 50.4.2, defines an
unlabeled use of a drug as a use that is not included as an indication on the drug’s label as
approved by the Food and Drug Administration (FDA). This section states that FDA-approved
drugs used for indications other than what is indicated on the official label may be covered under
Medicare if the contractor determines the use to be medically accepted, taking into consideration
the major drug compendia, authoritative medical literature, and/or accepted standards of medical
practice.

For 1 of 80 selected outpatient claims, the Hospital incorrectly billed Medicare for an unlabeled
use of a drug. The Hospital stated that this occurred because of a billing error. As a result, the
Hospital received an overpayment of $637.



                                                 8
RECOMMENDATIONS

We recommend that the Hospital:

   •    refund to the Medicare contractor $487,558, consisting of $338,379 in overpayments for
        the incorrectly billed inpatient claims and $149,179 in overpayments for the incorrectly
        billed outpatient claims, and

    •   strengthen controls to ensure full compliance with Medicare requirements.

HOSPITAL COMMENTS

In its written comments on our draft report, the Hospital stated that it had no further comments
on the contents of the report and had no objections to our recommendations. The Hospital’s
comments are included in their entirety as the Appendix.




                                                9
APPENDIX
APPENDIX: HOAG MEMORIAL HOSPITAL PRESBYTERIAN COMMENTS 





   December 4,2012


   Lori Ahlstrand
   Regional Inspector General for Audit Services
   Office of Inspector General
   U.S. Department of Health and Human Services 

   Via HllS/OlO Delivery Servcr (pCI' Lillian Yao, Auditor) 


   He: 	   Written Comments - On,ft Report from U,S, Hepal'lmcn! of Health and Human
           Services, Office of Inspector General (A-09-12-02012)

   Dear Ms. Ahlstrand:

   We have reviewcd the report of the Office of Inspector Gcneral draft report entitled Medicare
   Compliance Review of Hoag Memorial Hospital Presbyterian tor Calendar Years 2008 and 20 II
   (Report Number: A-09-1 2-020 12), transmitted to us via email on November 6, 2012.

   We have 110 further comments on the contents of the report) and have no objections to the
   recommendations set f()rlh therein.

   We want to thank you J()l" the professional way in which the audit was conducted and for carefully
   considering our comments in meetings and on prior drans,

                                                        Sincerciy,


                                                                        ..   ////[/
                                                             A/L/'~L Gt/ ( /Z;:!11rI1C(({:2'.;/(7)
                                                        Terri \V, Cammarano               " .~(/
                                                        Vice President and General Counsel

   cc: 	 Jennifer Mitzner, Senior Vice President and Chief Financial Officer
         Randy Ray, r~xecutive Directol'~ Revenue Cycle
         Shirley KOl11oto, Interim Acting Compliance Officer
